Audit of USAID/Iraq’s Health System
Strengthening Contract Activities
Audit Report Number E-267-05-002-P
February 28, 2005




                    Baghdad, Iraq
February 28, 2005


MEMORANDUM
FOR:          USAID/Iraq Mission Director, James E. Stephenson

FROM:         Regional Inspector General, Baghdad, Christine M. Byrne /s/

SUBJECT:      Audit of USAID/Iraq’s Health System Strengthening Contract Activities
              (Audit Report No. E-267-05-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on the draft report and have included them, excluding
attachments, as Appendix II.

The report contains one recommendation for corrective action. In your written
comments, you concurred with the recommendation and provided evidence of actions
taken to address the auditors’ concerns. Based upon the actions taken to address these
concerns, we consider that a management decision has been reached and final action has
been taken on this recommendation.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during this audit.
(This page intentionally left blank)




                                       2
Table of   Summary of Results.......................................................................................... 5
Contents
           Background ....................................................................................................... 5

           Audit Objective................................................................................................. 6

           Audit Findings .................................................................................................. 7

                      Intended Outputs Were Not Achieved...................................................8

           Evaluation of Management Comments............................................................16

           Appendix I – Scope and Methodology ............................................................17

           Appendix II – Management Comments...........................................................19




                                                                                                                                  3
(This page intentionally left blank)




                                       4
Summary of   The Regional Inspector General in Baghdad, Iraq conducted this audit to determine
Results      whether activities under USAID/Iraq’s Health System Strengthening Contract (the
             contract) had achieved their intended outputs. (See page 6.)

             The audit found that activities under the contract did not achieve their intended
             outputs. Based on our review of documentation on file at the Mission and
             furnished by the contractor, 60 percent of the activities (28 of 47) did not achieve
             their intended outputs. This occurred, in part, because the contractor did not
             effectively manage its program to ensure that activities were completed as
             scheduled and produced deliverables which strengthened the Iraqi Ministry of
             Health (MOH). In addition, a reduction in the contract’s cost ceiling in January
             2004 prompted the contractor to cancel or curtail a number of its activities, including
             some that were scheduled to be carried out prior to the reduction, which the Mission
             expected to be completed. (See page 8.)

             Although the contract has since expired, preventing the Mission from taking
             action to address the unachieved outputs, the audit found that the Mission needs to
             improve its process for reviewing and approving requests for modifications to
             future contracts. Specifically, the Mission needs to develop written procedures to
             ensure the timely disposition of such requests. We made one recommendation to
             address this issue. (See page 16.)

             The Mission concurred with the audit recommendation and provided evidence
             that it had instituted new procedures, which went into effect in January 2005, to
             address the auditors’ concerns. Based on the Mission’s response, we consider
             final action to have been taken on this recommendation.



Background   Health care services in Iraq deteriorated substantially under Saddam Hussein.
             Mission documents, for example, indicated that hospitals had not received the
             necessary repairs or maintenance for over a decade. In addition, primary health
             centers were unable to function properly due to a shortage of equipment and
             materials. By 2003, USAID reported that almost a third of the children in the
             south and central part of the country were malnourished. Low breastfeeding rates,
             high rates of anemia among women, low birth weight, diarrhea, and acute
             respiratory infections caused one in eight children to die before their fifth
             birthday. In the aftermath of the 2003 conflict, the sector continued to deteriorate
             due to the disruption of services and looting of equipment, medicine and supplies.

             In an effort to reestablish health services during the post-conflict period, USAID
             awarded a $43.8 million cost-plus-fixed-fee contract to Abt Associates (Abt), in
             April 2003, to strengthen the overall health system and ensure the rapid
             normalization of health services. To accomplish this, Abt was expected to

                                                                                                  5
                  support and strengthen the MOH through the provision of technical, commodity
                  and managerial support. Specific components of the contract included:

                         Technical assistance to the MOH in connection with the provision of
                          health services, education, information and technical assistance.

                         Technical support to the USAID Mission.

                         Rapid response grants to address specific health needs in Iraq.

                  The contract initially covered a one-year period ending on April 30, 2004, but was
                  later extended (through a series of extensions) 7 months to November 30, 2004.
                  The total estimated cost of the contract, which included a $1.7 million fixed fee,
                  was also reduced during the contract period from approximately $43.8 million to
                  $22.6 million (later increased to $23.0 million). As of November 30, 2004,
                  cumulative obligations and disbursements under the contract totaled
                  approximately $23.0 million and $20.7 million, respectively.

                  The activities to be carried out under the contract were contained in a work plan
                  drafted by Abt in June-July 2003―based on input from the MOH, Mission and
                  Coalition Provisional Authority1 (CPA)―and formally approved by both the
                  Mission and CPA. While this work plan was not considered part of the contract, it
                  represented an important implementation tool in that it (1) outlined most, but not
                  necessarily all, of the activities that both Abt and the Mission agreed to complete
                  under the contract and (2) included timelines showing when the activities were
                  expected to be completed. Given the value of this work plan, it was used as a basis
                  for answering the audit objective.



Audit Objective   As part of its fiscal year 2004 audit plan, the Regional Inspector General in
                  Baghdad conducted this audit to answer the following objective:

                  Did USAID/Iraq’s health system strengthening contract activities achieve
                  their intended outputs?

                  Appendix I contains a complete discussion of the audit scope and methodology.



                  1
                     The Coalition Provisional Authority (CPA) is the name of the temporary governing body which
                  was designated by the United Nations as the lawful government of Iraq until such time as Iraq was
                  politically and socially stable enough to assume its sovereignty. The CPA began operations
                  following the overthrow of Saddam Hussein and his Baath Regime in April of 2003 and continued
                  until the CPA was dissolved on June 28, 2004 when Iraq became a sovereign nation.



                                                                                                                 6
Audit Findings   The activities implemented under USAID/Iraq’s Health System Strengthening
                 Contract did not achieve their intended outputs.

                 During the contract period, the contractor, Abt, issued a work plan outlining the
                 individual activities it planned to implement under the contract. This plan
                 contained a total of 69 activities, of which the Mission identified 47 that were still
                 expected to be completed by the end of the contract period after taking into
                 account the reduction in the contract’s estimated cost ceiling. Of these 47
                 activities, we determined that only 19 (40 percent) achieved their intended
                 outputs, 4 (9 percent) achieved them only partially, and 24 (51 percent) did not
                 achieve them at all.

                 Among the notable achievements under the contract, there was one in particular
                 that supported the MOH in its efforts to better manage Iraq’s health care system.

                    Vision Development: In support of the MOH’s efforts to create a long-term
                    vision for developing Iraq’s health care sector, Abt assisted in implementing a
                    number of group discussions. Specifically, Abt organized and facilitated a
                    series of working groups composed of ministry leaders, representatives from
                    all sectors of the health care system and non-governmental organizations
                    (NGOs) who worked together to examine approaches to reform major
                    functional areas of the health system. The contractor was also responsible for
                    facilitating a second round of meetings involving nine additional working
                    groups created in the areas of:

                           public health,
                           health care delivery,
                           education and training,
                           healthcare financing,
                           legislation and regulation,
                           drugs and materials,
                           healthcare information systems,
                           human resources, and
                           licensing and accreditation.

                    Through discussions, these groups outlined their vision for improving the
                    health care system. This effort ultimately resulted in the drafting of a
                    document, titled Vision for the Iraq Health System, which was used as one of
                    the reference materials at the MOH’s national conference, held in August
                    2004, as the conference reviewed future strategies for health care reform.
                    Although this effort did not result in the development of a national health care
                    strategy as originally planned, it supported the MOH’s shift toward longer-
                    term planning for the sector.


                                                                                                     7
A majority of the activities under the contract, however, either did not achieve
their intended outputs or only partially achieved them. As a result, these USAID-
funded activities did not provide the level of support envisioned under the
contract and often offered little, if any, benefit to the MOH. A description of
several of these activities is discussed below.

Intended Outputs
Were Not Achieved

Summary: Under its contract with USAID, Abt developed a work plan which
outlined the activities to be carried out during the contract period. The audit,
however, determined that activities contained in this work plan often did not
achieve their intended outputs, in part, because the contractor did not effectively
manage its program to ensure that agreed-upon activities were completed as
planned. In addition, the reduction in the contract’s cost ceiling prompted the
cancellation or curtailment of a number of activities, including some the Mission
felt should have been completed. As a result, the program did not provide the
MOH with the level of support originally planned and, therefore, did not
effectively contribute toward the strengthening of the Iraqi healthcare system.

The activities to be carried out under the contract were outlined in a work plan that
Abt prepared in June-July 2003 with input from the Mission, CPA and MOH. This
work plan was formally approved by the Mission on July 23, 2003. In addition to
describing the specific activities that both Abt and the Mission agreed to carry out
under the contract, the work plan included timelines showing when these activities
were expected to be completed. Since this information was needed to identify
intended outputs, the audit reviewed the activities in the work plan in answering the
audit objective. Abt’s work plan contained a total of 69 activities, of which the audit
identified 47 (based on input from the Mission) that were expected to be completed
after taking into account the reduction in the contract’s total estimated cost ceiling.

Our review of these 47 activities disclosed that the intended outputs for the activities
were often not achieved. Of the 47 activities reviewed, only 19 (40 percent) of the
activities achieved their intended output, 4 (9 percent) only partially achieved them,
and 24 (51 percent) did not achieve them at all. Examples of the latter two types of
activities include the following:

      Focused Household Surveys: This activity involved conducting surveys
       in order to gain a better understanding of the nature of Iraqi household
       demand for health care and to identify appropriate strategies for providing
       primary health care, taking into account the people’s cultural attitudes,
       customs, etc. Although Abt designed such a survey, it acknowledged it
       never actually conducted the survey, citing the reduction in the contract’s
       cost ceiling as its reason despite the fact that this activity was originally
       scheduled to completed by October 2003―2 months prior to Abt’s
       notification of the reduction.

                                                                                      8
   Quality Improvement Program: To improve the quality of primary care
    provided within the country, Abt was expected to design a quality
    improvement program in coordination with the MOH and other key
    stakeholders. Abt claimed that a quality improvement program could not
    be prepared at this time since such an initiative would have to be
    consistent with the country’s master health plan which had not yet been
    drafted. Officials from both the Mission and CPA disagreed with this
    assertion, contending that the lack of a master plan did not preclude the
    contractor from instituting some form of a program―even if it was limited
    in scope and scale―to improve the quality of primary care services.

   Facilities Database: Under this activity, Abt was to work with the MOH
    in developing a medical facilities database and train staff to maintain it.
    The database was intended to provide the MOH with an accurate and
    updated record of the country’s existing inventory of health care facilities
    to be used for monitoring purposes. Abt assisted the MOH in conducting
    the initial survey, collecting data on most of the facilities in the country.
    This data was then input into a database developed by Abt. During the
    data entry process, MOH staff received training on data entry. Once this
    activity was completed, however, Abt failed to ensure that the MOH had
    the means to maintain the system. According to MOH staff, the computer
    containing the database which Abt left with the MOH had a virus that
    blocked access. Although Abt furnished backup copies on CD disks, these
    were in a “read only” format, preventing the MOH from inputting data
    into the system and keeping it current. As a result, the MOH has been
    unable to maintain the database, causing the original data―gathered over
    a year ago―to become outdated. MOH staff expressed disappointment
    over the results and indicated the database is currently of little use to them.

   Primary Healthcare Equipment Kits: One of the key deliverables under
    the contract involved the procurement and delivery of equipment for
    primary healthcare facilities in Iraq. This equipment, procured under a
    $3.3 million subcontract, consisted of such items as an examination table,
    stethoscopes, autoclaves and instrument cabinets. While Abt was
    responsible for ensuring that the equipment was delivered, the actual work
    was carried out by a USAID-supported logistics support subcontractor
    (Logenix, International) which received the equipment and brought it to a
    warehouse located outside of Amman, Jordan where it was packed into
    wooden crates (kits) and later transported to Iraq for delivery to the
    designated clinics. Equipment for a total of 600 kits was to be packed and
    delivered. According to Abt’s work plan, this work was to be completed
    by March 2004. The delivery effort, however, was only partially
    completed at the time the contract reached its extended expiration date on
    November 30, 2004. As of that date, only 454 of the 600 kits had been
    delivered, with Logenix continuing to deliver the remaining kits.


                                                                                 9
       The delivery was not completed as scheduled primarily due to serious
       delays that had occurred earlier during the procurement phase, delays
       stemming from Abt’s inability to complete the procurement as originally
       planned. Although Abt’s work plan specified that the procurement was to
       be completed by October 2003, Logenix did not receive the final shipment
       of equipment for packing until mid-June 2004. This delay, in turn, caused
       delays in the delivery process. For example, the delayed receipt of
       equipment forced Logenix to deliver the bulk of the kits after the June 28th
       handover of authority to the Iraqi Interim Government, at which time the
       security threat level skyrocketed. This made it difficult for Logenix to
       deliver the kits to the clinics and forced the firm to operate in a much more
       hostile security environment. These delivery delays, in turn, affected
       other activities as well. The late deliveries, for example, prevented the
       equipment from being available for use during the training of the primary
       care providers, provided earlier under the contract.




       Photograph showing the contents of one of the health care kits. Due to delays, kits like
       this one were still waiting to be shipped to primary health care facilities at the end of the
       contract. (Warehouse in South Shunei, Jordan; April 2004)

Activities like the ones cited earlier did not achieve their intended outputs, in part,
because Abt did not always effectively manage its program, as evidenced by the
slow progress and delays in initiating activities at the start of the contract. Given
the tight timeframe in which the activities had to be completed, it was imperative
that they be initiated without delay. Under the leadership of Abt’s initial chief-of-
party (COP), however, little progress was achieved during the first 2 months of


                                                                                                10
the contract (May 2003 to June 2003). During this period, and in the following
months, there were delays in mobilizing key staff assigned to certain activity
areas, with the COP not arriving until June 1, 2003. Problems also stemmed from
the COP’s management style. Following her arrival, the COP reportedly
indicated that she did not recognize the CPA as a legitimate authority within the
MOH and maintained limited contact with both CPA and MOH staff, despite
efforts by the former to include the COP in its meetings. This approach was not
conducive to an effective working relationship with two of the contractor’s key
implementation partners.

At first, the Mission did not take immediate action to address this slow start-up
due, in part, to the late arrival of the COP. Action was also delayed because the
Mission’s activity manager, according to one former Mission official, did not
fully recognize the contract’s high visibility and the urgent need to show results
over a short period of time. In June 2003, USAID/Washington expressed
concerns regarding the lack of progress under the contract, prompting the Mission
to intervene and assist Abt in developing its required work plan. This work plan
was completed and approved in July 2003―3 months into the 12 month contract.

In August 2003, in response to growing concern over the slow progress under the
contract, the Mission held several meetings with Abt to review the work done to
date and discuss specific actions that needed to be taken to get the contract on
track and activities initiated. But in September 2003, the Mission noted that little
progress had been achieved since the August meeting. This prompted the Mission
to take corrective measures and, on October 28, 2003, it issued a Cure Notice2
formally notifying Abt that it was not complying with specific provisions of the
contract, based on non-performance issues. Abt was given 10 days to notify the
Mission of actions taken to address the deficiencies cited or face possible
termination of the contract. Based on Abt’s response, the Mission determined that
sufficient action had been taken to allow the contractor to continue. However, by
the time this had been resolved, in mid-December 2003, 8 months had elapsed.

The problems experienced during this period were further compounded by the
high turnover among the contractor’s management staff. From the contract’s
inception, in May 2003, through December 2003, Abt went through a series of
four COPs which, at a minimum, affected the continuity of operations. It should
be noted that the Mission also experienced a high turnover of staff, with at least
six activity managers and Cognizant Technical Officers (CTOs) assigned to the
contract at various times. Such a large turnover had to impact, at least to some
degree, the continuity and consistency of direction provided to the contractor.



2
  FAR 49.607 requires the issuance of a Cure Notice to the contractor if the contract is to be
terminated for default. The notice would cite the condition endangering performance and indicate
the consequences (termination of contract) if the condition is not cured within the time specified.


                                                                                               11
Abt’s problems in managing its program were also reflected in the
implementation of its activities. One of the main deliverables under the contract,
as stated earlier, involved the provision of equipment for designated primary
healthcare clinics located around the country. During the contract period, it was
agreed that Abt would procure equipment for 600 clinics. The Mission approved
a list of the equipment to be procured for each clinic which consisted of 59 items.
According to Abt’s work plan, the procurement was scheduled to be completed by
October 2003. However, the Mission’s logistics support subcontractor (Logenix),
did not receive the final shipment of equipment at its warehouse for packing until
mid-June 2004―8 months later. Based on a review of the correspondence and
other records on file at the Mission, we determined that this delay was partly due
to the amount of time Abt took to arrange this procurement. Although we
identified instances where the Mission could have responded to Abt’s requests for
approval in a timelier manner, Mission records indicated Abt received
authorization from the Mission’s Contracting Office to proceed with the
procurement as early as September 2003. This authorization was reiterated to Abt
on October 24, 2003, yet Abt continued to solicit approval from the Mission for
other aspects of the procurement, thereby prolonging the process.


                                                  Blood Pressure
                                                Sphygmomanometer




      Stethoscope

                                                                          Suturing Kit




                            Autoclave
                            Sterilizer



Examples of some of the equipment included in the kits delivered to Iraq’s primary health care
facilities. (Pictures furnished by Logenix, International)

Even after the necessary approvals were obtained, the procurement process
continued to experience problems.            For example, Abt’s procurement
subcontractor did not take appropriate steps to ensure that the vendors it procured
equipment from properly packed the equipment and enclosed the proper shipping
documents. This resulted in major difficulties on the receiving end as the
Mission’s logistics subcontractor (Logenix) started receiving the shipments in
Amman, Jordan. According to one Logenix official, almost every shipment
received had some type of problem with the paperwork (e.g., no commercial
invoice, no packing list, improper consignment, discrepancies between the


                                                                                           12
quantity of units received and that specified on the packing list). This resulted in
delays in the receipt and repacking of the equipment (into kits) while problems
with the shipping documents were being sorted out with the vendors―often
resulting in equipment being held at a border or at a Customs warehouse where
storage, demurrage and penalties were incurred.

Delays also occurred as a result of shipments arriving with items missing or
damaged, requiring the items to be reordered or repaired. In one case, Logenix
received damaged instrument cabinets and gynecological exam tables. The
vendor, located in Turkey, sent a team to repair the equipment, a task that ended
up taking almost 2 months to complete, further delaying the packing process.

The overall quality of some the equipment was also called into question by some
of the Logenix staff, and not just as a result of arriving in a damaged condition.
One official, for example, pointed out that the autoclaves were ordered from a
vendor in India that had never manufactured them before. In reviewing
correspondence furnished by Logenix, the auditors noted that Abt often did not
respond to Logenix’s requests for information, which it needed to move forward,
in a timely manner, nor did it provide adequate direction in coordinating the
receipt of the equipment and resolving problems on the receiving end resulting
from suppliers not following shipping instructions. Logenix estimated it incurred
over $250,000 in additional costs relating to extra warehousing, labor and
supplies stemming from the delayed procurement and problems experienced with
Abt’s management. One Logenix official remarked that in his almost 20 years of
experience with USAID procurement, he had “never witnessed such a debacle.”




 (Left): Photo of cushions for examination tables arriving at the warehouse torn due to poor
packing; (right): Photo of Goose Lamp with broken stem (Warehouse in Jordan; April 2004).

The delayed implementation of work plan activities resulted in some being
cancelled by Abt when it was notified by the Mission in January 2004 that the
contract would not be fully funded. According to a former CTO, this reduction in
the contract’s funding cap was in response to a reduction in the Mission’s funding
level by the CPA, at which time the Mission determined that it could not justify
fully funding the contract in light of Abt’s lack of progress and large pipeline of


                                                                                         13
unspent funds. This effectively reduced Abt’s cost ceiling from approximately
$43.8 million to $22.6 million (later increased to approximately $23.0 million).
In response to this action, Abt elected not to carryout a number of the activities
specified in its work plan, including some scheduled to be performed earlier in the
contract but which had not yet been initiated at the time of notification due to a
late start-up. The contractor also curtailed the extent of work performed under a
number of other activities, citing funding constraints as the primary reason.

These activity changes were reflected in a proposed revised work plan that Abt
submitted to the Mission on February 12, 2004, in response to an earlier request.
At this time, Abt requested a contract modification to amend the contract’s scope
of work (SOW) given that the contract was not going to be fully funded.
Specifically, Abt requested that the contract’s original SOW be replaced in its
entirety with the revised work plan. After reviewing the work plan, however, the
Mission was concerned that Abt’s plan primarily reflected actual work done to
date, rather than what Abt was expected to do under its original work plan. As
such, the revised work plan would not hold the contractor accountable for
activities it should have performed earlier in the contract period but did not.
Mission officials were also concerned that replacing the original SOW with the
revised work plan would effectively “negate” the Cure Notice issued earlier since
this notice was directly linked to the contract and cited specific sections from the
SOW that would be deleted as a result of the proposed contract modification.

In light of these concerns, the Mission tried to come up with an appropriate
alternative that would ensure that Abt remained accountable for those activities it
was expected to carry out prior to its notification, in January 2004, that the
contract would not be fully funded. This process, however, continued for several
months―despite repeated requests from Abt for a formal response on this
issue―since both sides reached an impasse as to the manner in which the SOW
should be amended. Specifically, Abt insisted that the original SOW be replaced
in its entirety with Abt’s revised work plan covering the entire contract period.
On the other hand, the Mission felt it more appropriate that the original SOW be
retained and make reference to the revised work plan for the period from January
2004 forward, the period following notification. These negotiations ultimately led
to a contract modification that retained the original SOW and provided a broad
description, to encompass the tasks included in the revised work plan, of the
specific areas Abt was expected to focus on during the period after notification.
But this modification was not signed until July 30, 2004―over 5 months after Abt
had submitted its revised work plan and requested the modification.

While this delay was primarily due to the impasse between the Mission and Abt
over the SOW issue, the Mission could have possibly avoided this situation by
formally communicating its position on this issue to Abt early on. In this
instance, the Mission’s Contracting Office, which relied on input from the CTO,
did not communicate with Abt’s home office on the SOW issue until early April


                                                                                 14
2004―2 months after Abt’s initial request for a contract modification and only
after repeated attempts by Abt to obtain a written response on this matter.
Although extensive discussions between the COP and CTO took place prior to
this communication, there were indications that some of the issues agreed to
during these discussions were not always conveyed to Abt’s home office. This, in
turn, led to delays when modification documents, drafted based on agreements
with the COP, were forwarded to Abt’s home office only to be rejected. Though
there was no evidence indicating that the difficulties in resolving this issue had a
negative impact on the implementation of activities, steps need to be taken to
ensure that requests for modifications are resolved in a timelier manner.

As a result of the delays and other problems experienced by Abt in implementing
its activities, the MOH was left with a number of activities that were either never
carried out or that produced deliverables that were of little or no use to the
Ministry. Consequently, the MOH did not receive the level of support envisioned
under the contract to strengthen and improve its management of the Iraqi health
care system during the post-conflict period. In addition, the delays in the delivery
of the primary health care kits, which is still on-going, forced the Mission to
extend the contract by 7 months to November 30, 2004, and increase the cost
ceiling by an additional $2.0 million―using funding allocated for the follow-on
health sector contract. This amount is on top of the additional logistical costs
(e.g., extra warehousing, labor, supplies) estimated to be over $250,000, which
the logistics support subcontractor estimated it incurred as a result of the delays in
the procurement process and other problems stemming from Abt’s management.

Since the contract with Abt has expired, there is little that can be done with
regards to the activities and unachieved outputs reviewed in this audit. We
believe, however, that USAID/Iraq can benefit from this experience by improving
its process for responding to requests for modifications to contracts. Specifically,
the Mission’s Contracting Officer and CTO need to work together to ensure that
(1) the Mission promptly responds to such requests by formally notifying the
contractor’s headquarters of the Mission’s position or intent and, if difficulties
arise, keeping the headquarters apprised throughout the negotiations process and
(2) the analysis and negotiations connected with the modification request are
completed in a timely manner.

Although USAID policy provides some guidance on the CTO’s responsibilities
for notifying the Contracting Officer concerning modifications to the contract, we
believe the Mission needs to develop internal procedures that further delineate the
responsibilities between the Contracting Officer and CTO in responding to these
requests, particularly when the CTO does not agree with a contractor-proposed
change. These procedures should also specify time parameters for specific tasks
to ensure requests to modify the contract are processed in a timely manner.




                                                                                   15
                Such internal procedures will reduce the risk of misunderstandings and disputes
                and ensure that there is a clear understanding on the contractor’s SOW.
                Therefore, we are recommending the following:

                       Recommendation No. 1: We recommend that USAID/Iraq
                       develop written procedures covering the review and approval of
                       contractor and Cognizant Technical Officer requests for
                       modifications to future health sector contracts to ensure timely
                       and efficacious disposition of these requests.




Evaluation of   In response to our draft report, USAID/Iraq concurred with the audit
Management      recommendation and provided evidence indicating that it had already taken action
Comments        to address the auditors’ concerns. Specifically, in response to Recommendation
                No. 1, Mission management stated that it had issued an Acquisition and
                Assistance Notice, which went into effect on January 11, 2005, establishing
                written procedures covering the Mission’s process for responding to contract
                modification requests. The Mission furnished a copy of this notice which
                specified the procedures to be followed by the CTO and Contracting Officer in
                responding to such requests, including the time frames that specific tasks are to be
                completed within to ensure that requests are addressed in a timely manner.

                Based on the above action by the Mission to address the auditors’ concerns, we
                consider the recommendation to have received a management decision and final
                action taken upon issuance of this report.




                                                                                                 16
                                                                                    Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General in Baghdad audited USAID/Iraq’s Health System
              Strengthening Contract (the contract) in accordance with generally accepted
              government auditing standards. The purpose of the audit was to determine
              whether activities under the contract achieved their intended outputs.

              These activities were carried out under a $43.8 million cost-plus-fixed-fee USAID
              contract awarded to Abt Associates (Abt) in April 2003 to strengthen the overall
              Iraqi health system and ensure the rapid normalization of specific health services.
              The contract covered a one-year period ending on April 30, 2004, but was later
              extended, through a series of extensions, an additional 7 months to November 30,
              2004. In addition, the total estimated cost of the contract was reduced during the
              contract period from approximately $43.8 million to $23.0 million. As of
              November 30, 2004, cumulative obligations and disbursements under the contract
              totaled approximately $23.0 million and $20.7 million, respectively.

              The audit focused on determining whether the planned activities under the Abt
              contract achieved their intended outputs during the contract period, which was
              from April 30, 2003 through November 30, 2004. In conducting this audit, we
              initially examined the activities listed in Abt’s approved Coordinated Work Plan
              (July 2003) and identified, based on input from the Mission’s activity manager,
              those activities that could reasonably be expected to be completed despite the
              reduction in the contract’s cost ceiling. Based on this analysis, we identified 47
              activities out of a total of 69 listed that we determined should have been
              completed. These 47 activities represented our audit universe. The scope of this
              audit covered all 47 activities and involved an assessment as to whether each of
              these activities achieved its intended output. These assessments were based, in
              part, on information reported by Abt as well as on input provided by the
              Mission’s activity manager and officials at the Iraqi Ministry of Health (MOH).
              To verify the reliability of the Mission’s input, we performed a detailed analysis
              on a judgmental sample of 14 of the 47 activities to check whether the Mission’s
              assessments were consistent with those derived from our audit testing.

              In addition to the above, although not directly related to the audit objective, the
              audit included an examination of management controls relating to the monitoring
              of activities performed under the contract. Specifically, these controls included:

                     Holding weekly meetings with contractor and MOH staff to keep abreast
                      of specific activities and give direction.
                     Reviewing Abt’s monthly performance and financial reports.
                     Examining and certifying Abt’s public vouchers.


                                                                                              17
The audit also involved interviews with current (and former) staff at the
USAID/Iraq Mission, located within the International Zone, and technical staff at
the MOH in Baghdad, Iraq. The audit fieldwork was performed from September
1, 2004 through January 4, 2005 and was limited to interviews with key technical
staff and review of relevant performance and financial documents. With the
exception of the offices at the MOH, the audit team was not able to visit any of
the activity sites due to the security restrictions at the time of the fieldwork.

Methodology

To answer the audit objective, we reviewed activities contained in Abt’s approved
work plan which described the specific tasks that both Abt and the Mission agreed
to do under the contract, including timelines showing when individual activities
were expected to be completed.

In conducting our fieldwork, we interviewed officials from the USAID/Iraq
Mission and its contractor, Abt, as well as technical staff from the MOH,
Coalition Provisional Authority and logistics support contractor. These interviews
were conducted either in person or via telephone or e-mail correspondence.

In addition, we examined available program documents furnished by the Mission,
contractor, MOH and the logistics support contractor. This documentation
included the contract, correspondence, evaluation reports, monthly performance
and financial reports, receiving reports, Abt’s work plan and documented
evidence of deliverables produced by the contractor. As part of our initial
planning work, we also examined prior audits conducted by the U.S. Defense
Contract Audit Agency on Abt. In addition, we performed a limited assessment
of the procedures and management controls relating to the Mission’s monitoring
of the contract in order to determine the extent of testing required for this audit.

Our review involved determining whether the activities included in our audit
universe achieved, partially achieved or did not achieve their intended outputs
based on interviews with technical staff and documented evidence of deliverables.
Specifically, this assessment was based on an analysis of the extent to which the
actual output compared with the intended output, taking into account such factors
as the benefit to the MOH, the level of effort accomplished compared to that
intended, and input furnished by the USAID/Iraq activity manager and MOH.

Our materiality threshold for this audit was established at 10 percent. In other
words, if 90 percent or more of the activities reviewed were determined to have
achieved their intended output as of the end of the contract (November 30, 2004),
this would result in an unqualified opinion to the audit objective.




                                                                                 18
                                                                                Appendix II


Management
Comments




      Date:            January 26, 2005

      TO:              Regional Inspector General Baghdad, Christine M. Byrne

      FROM:            USAID/Iraq Mission Director, James Stephenson /s/

      SUBJECT:         Audit of USAID/Iraq’s Health Systems Strengthening Contract

      REF:             Audit Report No. E-267-05-00x-P



      This memorandum transmits the Mission’s response to the Regional Inspector General’s
      draft report on the audit of USAID/Iraq’s Health Systems Strengthening Contract.

      The stated objective of the audit was to determine whether USAID/Iraq’s health
      systems strengthening contract activities achieved their intended outputs. The audit
      found that activities implemented under the contract did not, overall, achieve their
      intended outputs. Specifically, of 47 audit universe activities, only 19 (40 percent)
      achieved their intended outputs, 4 (9 percent) partially achieved intended outputs, and
      24 (51 percent) did not achieve intended outputs at all. The Mission accepts this audit
      finding.

      The contract has ended and the Mission is unable to undertake actions to address the
      problem of unachieved outputs; however, the audit identified a management control that
      needs to be strengthened to improve USAID/Iraq’s process for responding to requests for
      modifications to contracts.




                              U.S. Agency for International Development
                                    Iraq Mission, APO AE 09316
                                        Fax +1(202)216-6276




                                                                                          19
Recommendation No. 1:
     We recommend that USAID/Iraq develop written procedures covering the
     review and approval of contractor and Cognizant Technical Officer requests
     for modifications to future health sector contracts to ensure timely and
     efficacious disposition of these requests.

The Mission accepts the audit recommendation. Subsequent to the completion of the
audit fieldwork, the Mission has drafted and issued, effective January 11, 2005, a
USAID/Iraq Acquisition and Assistance Notice which documents the requirement to
formalize changes to contract statements of work prior to implementation of changes by
the contractor and within a reasonable timeframe of notification of the requirement for a
change. The Notice on Processing Modifications to Contract Statements of Work Number
05-001 (attached below) is hereby formally a part of the Mission’s internal operating
procedures.

Based on the above, we request your agreement with our management response as stated
in this memorandum for the audit recommendation.


cc. USAID / Iraq Controller, A. Fawcett




                          U.S. Agency for International Development
                                Iraq Mission, APO AE 09316
                                    Fax +1(202)216-6276




                                                                                      20
